Office of Inspector General
Audit Report




AIR ENFORCEMENT



Region 6's Oversight of New Mexico
      Air Enforcement Data


 Report No. E1GAF7-06-0032-8100078


          March 13, 1998
Inspector General Division   Central Audit Division
 Conducting the Audit:       Dallas, Texas


Region Covered:              Region 6


Program Office Involved:     Compliance Assurance and
                             Enforcement Division

                             Multimedia Planning and
                             Permitting Division
                                        March 13, 1998


Mr. Mark Weidler
Secretary
New Mexico Environment Department
P.O. Box 26110
Santa Fe, NM 87502-6110

                                             Re:    Region 6's Oversight of New Mexico
                                                     Air Enforcement Data
                                                    Report No. E1GAF7-06-0032-8100078

Dear Mr. Weidler:

       Attached is a copy of our audit report entitled Region 6's Oversight of New Mexico Air
Enforcement Data. This report contains findings and recommendations that are important to both
the Environmental Protection Agency (EPA) and New Mexico. Jerry Clifford, Acting Regional
Administrator, EPA Region 6, is the action official for this report.

        This report contains findings that describe problems the Office of Inspector General (OIG)
has identified and corrective actions OIG recommends. This report represents the opinion of OIG.
Final determinations on matters in this report will be made by EPA managers in accordance with
established EPA audit resolution procedures.

        If you wish to discuss this report, please contact me at (913) 551-7831 or Dave Boyce,
Audit Manager in our Dallas office, at (214) 665-6620. Please refer to the report number on all
related correspondence.

                                             Sincerely,


                                             Bennie S. Salem
                                             Divisional Inspector General

Attachment
                                          March 13, 1998

MEMORANDUM

SUBJECT:       Region 6's Oversight of
                New Mexico Air Enforcement Data
               Report No. E1GAF7-06-0032-8100078

FROM:          Bennie S. Salem
               Divisional Inspector General

TO:            Jerry Clifford
               Acting Regional Administrator
               EPA Region 6

        Attached is our audit report entitled Region 6's Oversight of New Mexico Air
Enforcement Data. This report contains findings and recommendations that are important to both
the Environmental Protection Agency (EPA) and New Mexico. Specifically, we encourage
Region 6 to continue to work with New Mexico to develop a comprehensive inspection plan and
to ensure timely and accurate reporting of significant violators.

        This report contains findings that describe problems the Office of Inspector General (OIG)
has identified and corrective actions OIG recommends. This report represents the opinion of
OIG. Final determinations on matters in this report will be made by EPA managers in accordance
with established EPA audit resolution procedures.

Action Required

        In accordance with EPA Order 2750, you, as the action official, are required to provide us
a written response to the audit report within 90 days of the final audit report date. For corrective
actions planned but not completed, reference to specific milestone dates will assist this office in
deciding whether to close this report.

        Should you have any questions about this report, please contact me at (913) 551-7831 or
Dave Boyce, Audit Manager in our Dallas office, at (214) 665-6620. Please refer to the report
number on all related correspondence. We have no objections to the further release of this report
to the public.

Attachment
                                              Region 6's Oversight of New Mexico
                                                           Air Enforcement Data


             EXECUTIVE SUMMARY

PURPOSE         The purpose of this audit was to determine whether the New
                Mexico Environment Department (New Mexico):

                       <        Identified significant violators in accordance
                                with the Environmental Protection Agency’s
                                (EPA) timely and appropriate enforcement
                                guidance,

                       <        Reported significant violators to EPA, and

                       <        Performed inspections that were sufficient to
                                determine if a facility violated the Clean Air
                                Act (CAA).



BACKGROUND      The CAA as amended in 1990 provides EPA authority to set
                and enforce national standards to protect human health and
                the environment from emissions that pollute the air. CAA
                lists 188 toxic air pollutants that must be reduced. CAA
                separately regulates six of the more serious air pollutants.
                EPA sets national standards for each of these criteria
                pollutants, and the states must take action to ensure facilities
                meet EPA standards.

                At the federal level, the air enforcement program is carried
                out largely by the regions. The regions delegate portions of
                their air enforcement responsibility to the states and often
                rely on the states to conduct inspections and take
                enforcement actions. Region 6 delegated such
                responsibilities to New Mexico.




                                                       E1GAF7-06-0032-8100078
                            i
                                                 Region 6's Oversight of New Mexico
                                                              Air Enforcement Data


RESULTS IN BRIEF   New Mexico and the Region 6 Compliance Assurance and
                   Enforcement Division (enforcement ) should have better
                   identified and reported significant violators. The annual
                   inspection plan developed by New Mexico, as required under
                   its Air Pollution Control Program Section 105 cooperative
                   agreement, did not establish goals for inspections of all major
                   stationary air pollution facilities. Further, New Mexico did
                   not place enough emphasis on completing committed
                   inspections. A lack of resources caused delays in New
                   Mexico’s inspecting and reporting of significant violators.
                   Region 6 enforcement did not adequately use provided
                   information to identify significant violators. In the absence
                   of inspection coverage of all major air pollution sources,
                   New Mexico could not assure adequate identification and
                   reporting of all significant violators. Further, Region 6 could
                   not adequately monitor the progress of New Mexico in
                   returning facilities to compliance. Information regarding
                   significant violators reported to EPA, Congress, and the
                   public was not complete and accurate.

                   New Mexico and Region 6 enforcement need to take actions
                   to ensure significant violators are returned to compliance
                   timely. New Mexico did not establish timeframes for taking
                   enforcement actions, and lacked legal counsel to assist with
                   significant violator actions. When enforcement actions are
                   not timely, facilities continue to emit pollution which could
                   lead to a higher potential for harm to the environment and
                   local residents.



RECOMMENDATIONS    We recommend that the Acting Regional Administrator
                   require the Region 6 Compliance Assurance and
                   Enforcement Division to:

                           1.        Work with New Mexico to develop a
                                     comprehensive inspection plan to address all
                                     major stationary air sources within New
                                     Mexico,

                                                          E1GAF7-06-0032-8100078
                                ii
                                                  Region 6's Oversight of New Mexico
                                                               Air Enforcement Data


                          2.         Continue to work with New Mexico to
                                     develop a process to ensure the timely and
                                     accurate identification of significant violators
                                     in EPA’s significant violator tracking system,

                          3.         Verify that significant violator information in
                                     AFS is complete and accurate, and

                          4.         Perform more effective oversight of
                                     significant violators to ensure that New
                                     Mexico takes timely and appropriate actions
                                     that result in facilities returning to
                                     compliance. In instances where the State
                                     does not act timely, the Region should
                                     consider taking its own enforcement actions.



AGENCY/STATE       Region 6 generally agreed with our findings and
COMMENTS AND OIG   recommendations and proposed taking the following
EVALUATION         corrective actions regarding significant violators:

                          <          Continue to enter, flag, and track planned
                                     inspections for the fiscal year in AFS and
                                     review monthly and quarterly reports from
                                     AFS.

                          <          Continue contact with each new AFS
                                     coordinator, as identified by the state, and
                                     provide necessary training and data support.

                          <          Continue to provide, as required in the MOU
                                     between the Multimedia Division and the
                                     Enforcement and Assurance Division, data
                                     necessary to ensure timely compliance and
                                     reporting of significant violators.




                                                           E1GAF7-06-0032-8100078
                               iii
                            Region 6's Oversight of New Mexico
                                         Air Enforcement Data


New Mexico also agreed in principle with the report
findings and recommendations and provided some proposed
corrective actions. The State’s response stated that New
Mexico takes it enforcement responsibilities very seriously,
strives to ensure that high quality inspections are performed,
and provides accurate and reliable reporting of its
enforcement activities. The State provided additional
documentation concerning required inspections and facilities
we identified as significant violators.

We agree with the corrective actions proposed by Region 6
and New Mexico. In response to New Mexico’s concerns,
we made revisions, where appropriate, to the final report
based on additional support provided by New Mexico.




                                     E1GAF7-06-0032-8100078
          iv
                                                                                        Region 6's Oversight of New Mexico
                                                                                                     Air Enforcement Data


                                      TABLE OF CONTENTS


                                                                                                                              Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
              Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

2        NEW MEXICO AND THE REGION COULD BETTER IDENTIFY AND REPORT
         SIGNIFICANT VIOLATORS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
               Guidance Called for Inspection Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
               New Mexico Did Not Establish Goals for Inspections of All Major Sources . . . . 7
               New Mexico Did Not Complete All Committed Inspections . . . . . . . . . . . . . . . . 8
               Lack of Resources Caused Delays in Inspecting and Reporting . . . . . . . . . . . . . 8
               Region 6 Enforcement Did Not Adequately Use Provided Information . . . . . . . 10
               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
               Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
               Agency/State Response and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

3        NEW MEXICO AND REGION 6 NEED TO IMPROVE THE TIMELINESS OF
         ENFORCEMENT ACTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               14
              EPA Guidance Specified Enforcement Action Timeframes . . . . . . . . . . . . . . . .                               14
              New Mexico Did Not Complete Enforcement Actions Timely . . . . . . . . . . . . .                                   14
              New Mexico Lacked Legal Counsel Assistance for Significant
               Violator Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      15
              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        16
              Agency/State Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          17




                                                                                                    E1GAF7-06-0032-8100078
                                                                 v
                                                                                  Region 6's Oversight of New Mexico
                                                                                               Air Enforcement Data

EXHIBITS

1     SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

2     PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


APPENDICES

I     EPA RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
II    NEW MEXICO RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
III   DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39




                                                                                             E1GAF7-06-0032-8100078
                                                           vi
                                            Region 6's Oversight of New Mexico
                                                         Air Enforcement Data




              ABBREVIATIONS



agreement     New Mexico Air Pollution Control Program section 105
               Cooperative Agreement

Bureau        New Mexico Air Quality Bureau

New Mexico    New Mexico Environment Department

AFS           Aerometric Information Retrieval System Facility
              Subsystem

CAA           Clean Air Act

CMS           Compliance Monitoring Strategy

enforcement   Compliance Assurance and Enforcement Division

EPA           Environmental Protection Agency

guidance      Timely and Appropriate Enforcement Response to
              Significant Air Pollution Violators

MOU           Memorandum of Understanding

OIG           Office of Inspector General

permitting    Multimedia Planning and Permitting Division




                                                     E1GAF7-06-0032-8100078
                        vii
                                         Region 6's Oversight of New Mexico
                                                      Air Enforcement Data

             CHAPTER 1
             INTRODUCTION

PURPOSE      The purpose of this audit was to determine whether the
             New Mexico Environment Department (New Mexico):

                    <       Identified significant violators in accordance
                            with the Environmental Protection Agency’s
                            (EPA) timely and appropriate enforcement
                            guidance,

                    <       Reported significant violators to EPA, and

                    <       Performed inspections that were sufficient to
                            determine if a facility violated the Clean Air
                            Act (CAA).

             This audit was conducted as part of a nationwide audit of
             air enforcement data.



BACKGROUND   CAA, as amended in 1990, provides EPA authority to set
             and enforce national standards to protect human health and
             the environment from emissions that pollute the air. CAA
             lists 188 toxic air pollutants that must be reduced. CAA
             separately regulates six of the more serious air pollutants —
             ground level ozone, particulate matter, carbon monoxide,
             sulfur dioxide, lead, and nitrogen dioxide. EPA sets
             national standards for each of these criteria pollutants, and
             the states must take action to ensure facilities meet EPA
             standards.

             At the federal level, the air enforcement program is carried
             out largely by the regions. The regions are expected to
             perform inspections and take action against significant
             violators found through inspections or other means. The
             regions can also delegate portions of their air enforcement


                                                  E1GAF7-06-0032-8100078
                        1
                             Region 6's Oversight of New Mexico
                                          Air Enforcement Data

responsibility to the states and often rely on the states to
conduct inspections and take enforcement actions.

CAA section 105 provides the authority for federal grants
to help state and local agencies prevent and control air
pollution. In fiscal 1996, Region 6 awarded New Mexico
$1,045,208 through a section 105 cooperative agreement
for the Air Pollution Control Program. The agreement’s
negotiated workplan contained specific work commitments
the State agreed to perform. Region 6 used this agreement
as the basis for evaluating the State’s performance under the
agreement. The agreement encompassed activities such as
inspections, monitoring, permitting, and enforcement, which
includes identifying and reporting significant violators in the
Agency's national database known as the Aerometric
Information Retrieval System Facility Subsystem (AFS).

In addition, Region 6 and New Mexico maintained an
enforcement memorandum of understanding (MOU). The
objectives of this MOU were to identify potential violators,
establish an enforcement presence, collect evidence for
enforcement actions, and target enforcement activities to
maximize the use of resources.

The New Mexico Environment Department is tasked with
the protection of the environment for the State. Four
divisions manage the State’s environmental programs, one
of which is the Environmental Protection Division. Within
this division, the Air Quality Bureau manages all matters
pertaining to the protection of air standards, the regulation
of air pollution sources, and the enforcement of actions
against environmental violators. An internal Office of
General Counsel provides legal support for pursuing
enforcement actions.

The Region 6 Compliance Assurance and Enforcement
Division (enforcement) is responsible for monitoring state
enforcement activities, and the Multimedia Planning and
Permitting Division (permitting) is responsible for verifying
the accuracy of AFS. As a result of our previous audit

                                       E1GAF7-06-0032-8100078
           2
                                          Region 6's Oversight of New Mexico
                                                       Air Enforcement Data

              entitled Region 6's Enforcement and Compliance
              Assurance Program (E1GAF5-06-0056-6100309) and
              dated September 26, 1996, the enforcement and permitting
              divisions entered into an MOU on January 29, 1997, to
              better define their responsibilities. The MOU requires that
              the Region 6 AFS compliance manager provide monthly
              AFS reports to the enforcement division and to the states
              for comments related to the accuracy of the data, including
              significant violator flagging. Responses to the AFS report
              are due by the end of the month. As of the date of our
              review, implementation of this MOU was still in process.

              New Mexico established a Small Business Technical and
              Environmental Assistance Program to encourage lawful
              cooperation among small business stationary sources and
              other persons to further compliance with CAA. New
              Mexico personnel stated that the State air program’s
              procedures provide immunity from enforcement actions for
              small businesses who apply for assistance before an
              enforcement action has occurred. Small businesses already
              under an enforcement action would not be immune from
              penalties for their violation.



SCOPE AND     We performed our audit in accordance with the Government
METHODOLOGY   Auditing Standards (1994 revision) issued by the
              Comptroller General of the United States as they apply to
              economy and efficiency program audits. Our review
              included tests of the program records and other auditing
              procedures we considered necessary. Our audit focused on
              state inspections of major facilities during fiscal 1996
              (October 1, 1995, to September 30, 1996). We conducted
              our fieldwork from June to October 1997.

              Additional details are provided in Exhibit 1.




                                                   E1GAF7-06-0032-8100078
                         3
                                          Region 6's Oversight of New Mexico
                                                       Air Enforcement Data

PRIOR AUDIT   Prior audit coverage is provided in Exhibit 2.
COVERAGE




                                                   E1GAF7-06-0032-8100078
                         4
                                                 Region 6's Oversight of New Mexico
                                                              Air Enforcement Data

                    CHAPTER 2
 NEW MEXICO AND THE REGION COULD BETTER IDENTIFY AND
            REPORT SIGNIFICANT VIOLATORS

                    New Mexico and Region 6 enforcement needed to better
                    identify and report significant violators. New Mexico did
                    not establish goals to complete inspections of major
                    stationary air pollution facilities within a 5-year time period.
                    Further, New Mexico did not place enough emphasis on
                    completing committed inspections. New Mexico’s lack of
                    resources caused delays in inspecting and reporting
                    significant violators. Region 6 enforcement did not
                    adequately use provided information to identify significant
                    violators. In the absence of complete inspection coverage
                    of major air pollution sources, New Mexico could not
                    assure adequate identification of all significant violators.
                    Without proper identification and reporting of significant
                    violator information, Region 6 could not adequately monitor
                    the progress of the cases to ensure return to compliance.
                    Also, information regarding significant violators reported to
                    EPA’s Office of Enforcement and Compliance Assurance,
                    Congress, and the public was not complete and accurate.



GUIDANCE CALLED     The fiscal 1996 New Mexico Air Pollution Control Program
FOR INSPECTION      section 105 cooperative agreement (agreement) required the
PLANS               State to develop and submit an annual inspection plan, by
                    program and class, of all sources in compliance with the
                    revised Compliance Monitoring Strategy (CMS), issued
                    March 29, 1991.

                    The fiscal 1996 State inspection plan listed major, synthetic
                    minor, and minor sources to be inspected that year. The
                    State was to evaluate inspection data and determine the
                    compliance status of all sources on the inspection plan
                    through inspection, compliance tests, or continuous
                    emission monitors, as required by applicable regulations.


                                                          E1GAF7-06-0032-8100078
                               5
                             Region 6's Oversight of New Mexico
                                          Air Enforcement Data

Prior to the revised CMS taking effect in fiscal 1992, states
were required to use the Inspection Frequency Guidance,
issued March 1980. This guidance required states to
inspect all major sources annually and all synthetic minor
sources every 2 years. According to the Associate Director
of the Air Program Division in EPA’s Region 3 and the
Air/Toxics and Inspection Coordination Branch Chief in
Region 6, Agency and state practice has unofficially
expanded the inspection criteria timeframe to a minimum of
an inspection at least once every 5 years.

Once a source was identified as a violator, EPA’s guidance
entitled Timely and Appropriate Enforcement Response to
Significant Air Pollution Violators (guidance) and dated
February 7, 1992, provided that the finding agency shall
determine whether or not a facility is a significant violator.
EPA shall add the newly designated significant violator to
the significant violator list. The fiscal 1996 agreement
between EPA and New Mexico required the State to
identify significant violators in AFS.

The guidance defines a significant violator as any major
stationary source of air pollution that violates emission,
monitoring, or substantial procedural requirements; is a
repeat or chronic violator; violates federal or state
administrative or judicial orders; or constructs or performs
major modifications without a permit. This guidance
requires states to report significant violators to EPA within
1 month of the violation, and to maintain the facility on
EPA’s significant violator list until it achieves compliance.
After the violation is reported, the state and EPA should
monitor the source until it achieves compliance. The state
or EPA should determine an appropriate time schedule for
achieving compliance and assessing a penalty, if necessary.
The state and EPA conduct teleconferences to discuss new
and existing significant violators. If EPA is dissatisfied with
the state’s enforcement action, it has the authority to
override the state and assume the lead in resolving the
violation.


                                      E1GAF7-06-0032-8100078
           6
                                                  Region 6's Oversight of New Mexico
                                                               Air Enforcement Data

NEW MEXICO DID NOT    Although OIG and Region 6 identified problems with New
ESTABLISH GOALS FOR   Mexico’s inspection coverage of all major sources in fiscal
INSPECTIONS OF ALL    1996, New Mexico had not developed an overall
MAJOR SOURCES         compliance monitoring strategy to provide for inspection of
                      all major stationary sources within the required timeframe.
                      According to September 30, 1996, AFS reports, New
                      Mexico inspected only 106 (53 percent) of its 199 major
                      sources between January 1, 1990, and September 30, 1996.
                      While the State made some progress in fiscal 1996 toward
                      inspecting major sources which had not been inspected in
                      the last 5 years, it did not yet have a formalized strategy
                      which would provide for inspections of all major stationary
                      sources within a specified timeframe, such as the EPA-
                      recommended 5-year cycles.

                      New Mexico responded to the draft report that the State
                      was not aware of a requirement to inspect all major sources
                      within a specific timeframe. The State was only aware of a
                      requirement to make inspections according to the inspection
                      plan. New Mexico agreed that, “as a matter of policy,” it
                      would be a good idea to inspect all major sources and
                      synthetic minor sources on a periodic basis.

                      Both OIG and Region 6 cited concerns in fiscal 1996
                      reviews about New Mexico’s failure to provide for
                      inspection coverage of all major facilities. OIG reported
                      that part of the problem could be attributed to New Mexico
                      targeting and inspecting many of the same sources year after
                      year.

                      Prior to fiscal 1997, the State used an EPA inspection
                      targeting software which identified some of the same
                      facilities for inspection every year. New Mexico repeated
                      the inspections because the facilities were targeted by the
                      software. New Mexico stated in its response that the
                      software did not work as expected, since many major
                      sources did not “bubble up” for inspection. It
                      acknowledged that, as a result, many sources were
                      identified for inspection year after year.


                                                           E1GAF7-06-0032-8100078
                                 7
                                                  Region 6's Oversight of New Mexico
                                                               Air Enforcement Data

                     At the start of fiscal 1997, New Mexico implemented its
                     own targeting database and used data in AFS to identify air
                     pollution sources needing inspections. The State believed
                     this method would provide complete coverage of major
                     sources in approximately 18-24 months.

                     Based on our review of AFS printouts, some progress had
                     been made. Region 6's midyear and end-of-year reviews
                     noted that New Mexico had inspected more facilities in
                     fiscal 1996. However, New Mexico only inspected an
                     additional 19 major facilities between September 30, 1996,
                     and August 21, 1997, and had 74 major facilities yet to be
                     inspected in approximately 7 months in order to accomplish
                     its goal of completing these inspections in 18 months.



NEW MEXICO DID NOT   New Mexico did not complete all fiscal 1996 committed
COMPLETE ALL         inspections. As part of the workplan requirements of its
COMMITTED            1996 agreement, New Mexico committed to inspect 112 air
INSPECTIONS          pollution sources in fiscal 1996. While the State completed
                     101 inspections, it only completed 56 of the committed
                     inspections.

                     New Mexico defended its substitutions. The State argued
                     that it substituted different facilities than those targeted due
                     to changing State priorities. The State further commented
                     that it should be allowed flexibility to adjust its
                     commitments during any year based on changing areas of
                     importance and State needs.



LACK OF RESOURCES    New Mexico attributed delays in completing inspection
CAUSED DELAYS IN     commitments and reporting significant violators to a lack of
INSPECTING AND       resources. The State experienced a turnover of inspectors
REPORTING            and a fiscal 1996 hiring freeze, which resulted in a lack of
                     experienced inspectors. Also, in late 1995 or early 1996,
                     the State lost its person responsible for updating AFS.


                                                            E1GAF7-06-0032-8100078
                                8
                             Region 6's Oversight of New Mexico
                                          Air Enforcement Data

New Mexico attributed its problems in completing
inspections to its shortage of experienced inspectors. At the
time of our audit, the State had one inspector with 5 years
experience, one with 3 years experience, and nine with less
than 2 years experience. Region 6 reported in its fiscal
1996 midyear review that the State had a shortage of staff
with the necessary background to complete all of the
targeted sources. Region 6 also reported in the midyear
review that the State advised Region 6 that the shortage in
personnel would deter the State from meeting its annual
commitments. Further, New Mexico had been under an
Agencywide hiring freeze since the beginning of fiscal 1996.

Turnover and the lack of resources also added to problems
in the reporting of significant violators in AFS. According
to New Mexico officials, the person responsible for the
input of significant violator information into AFS left
sometime in late 1995 or early 1996 and was not replaced
until March 1997. As a result, New Mexico did not report
significant violators in AFS for fiscal 1995 and 1996. An
EPA Air Program Significant Violator and Inspection
Analysis Report dated January 22, 1997, was prepared to
provide significant violator trend data through fiscal 1996
and should have alerted the Region that New Mexico was
not inputting significant violators into AFS. The report
listed 11 significant violators as identified in AFS for fiscal
1993 through 1994 in New Mexico but showed no
significant violators in fiscal 1995 or 1996.

New Mexico, in its response to the draft report, stated that
significant violator information was reported to Region 6
during monthly enforcement conference calls. However,
flagging in AFS was not done during fiscal 1996 because
Region 6 states were not authorized to enter data in the
significant violator flagging field and did not receive this
authority until March 1997. As we reported in our audit of
Region 6's Oversight of Arkansas Air Enforcement Data
(E1GAF7-06-0014-7100295), Region 6 officials provided a
slightly different explanation. While access to the significant


                                       E1GAF7-06-0032-8100078
           9
                                                  Region 6's Oversight of New Mexico
                                                               Air Enforcement Data

                     violator flagging field is new, states did have the capability
                     to input a significant violator designation in a day zero field.

                     Since the initiation of our audit, Region 6 held meetings
                     with New Mexico to discuss the identification of significant
                     violators and reporting them in AFS. As a result, New
                     Mexico reported nine significant violators in AFS prior to
                     our visit and added two more after our visit. (These entries
                     included significant violators which had returned to
                     compliance prior to fiscal 1996. The Region requested they
                     still be reported.) We identified 5 additional significant
                     violators in our review of 28 facilities.

                     The five significant violators identified by OIG included four
                     that had been operating without a construction permit and
                     one that had violated its permit conditions. For example,
                     one facility, constructed in 1983, operated until November
                     1995 without a permit. A state inspection conducted in
                     December of 1995 found that the facility was emitting much
                     higher emissions than were reported on its November
                     permit application.



REGION 6             New Mexico furnished Region 6 enforcement with an
ENFORCEMENT DID      annual report which listed ongoing and completed
NOT ADEQUATELY USE   enforcement actions. Within these listings, New Mexico
PROVIDED             identified the facilities it determined were significant
INFORMATION          violators. However, Region 6 did not verify that New
                     Mexico reported these violators in AFS.

                     Five of the 11 significant violators New Mexico entered into
                     AFS after discussions with the Region were reported to
                     Region 6 enforcement in September 1996. Additionally,
                     New Mexico reported three of the five significant violators
                     identified by OIG in the September 1996 report.

                     Region 6 enforcement officials did not use the information
                     furnished in New Mexico’s annual reports to verify data in
                     the AFS system. A Region 6 enforcement official stated

                                                            E1GAF7-06-0032-8100078
                                10
                                              Region 6's Oversight of New Mexico
                                                           Air Enforcement Data

                  that the Region did not verify that New Mexico entered its
                  significant violators into AFS because neither the State
                  agreement nor Region 6 policy identified the officials
                  responsible for the review of AFS input.

                  The Region’s solution to this problem, enacted in response
                  to prior OIG audits, had still not been implemented as of the
                  date of our review. Although the enforcement and
                  permitting divisions entered into an MOU in January 1997
                  that clearly outlined controls for verifying data input in
                  AFS, the Region had not begun using these controls.



CONCLUSION        Over one-third of the major facilities in New Mexico had
                  not received an inspection in more than 7 years. In the
                  absence of inspection coverage of all major sources, EPA
                  and the State cannot assure adequate and timely
                  identification of all significant violators.

                  Further, New Mexico added 11 significant violators to AFS,
                  as a result of our audit, and we identified 5 additional
                  facilities that should have been identified as significant
                  violators for fiscal 1996. Region 6 must assure that
                  significant violators are correctly identified and reported in
                  AFS. EPA needs accurate significant violator information
                  so that it can provide adequate monitoring of state activities
                  and can assure that information reported to Congress and
                  the public is accurate.



RECOMMENDATIONS   We recommend that the Acting Regional Administrator
                  require Region 6 enforcement to:

                         2-1.    Work with New Mexico to develop a
                                 comprehensive inspection plan to address all
                                 major stationary air sources within New
                                 Mexico,


                                                       E1GAF7-06-0032-8100078
                            11
                                               Region 6's Oversight of New Mexico
                                                            Air Enforcement Data

                          2-2.    Continue to work with New Mexico to
                                  develop a process to ensure the timely and
                                  accurate identification of significant violators
                                  in the AFS system, and

                          2-3.    Implement the Regional MOU to verify that
                                  significant violators reported in New
                                  Mexico’s reports are included in AFS as
                                  significant violators.



AGENCY/STATE       Region 6 concurred with the recommendations and findings.
RESPONSE AND OIG
EVALUATION         New Mexico also agreed with our recommendations but
                   disagreed with some factual findings and conclusions. The
                   State disagreed with language used concerning its
                   inspection obligations under the section 105 grant and
                   ability to enter significant violators into AFS. The State
                   agreed that two of the five OIG-identified facilities were
                   significant violators and provided additional documentation
                   to support its view that the remaining three were not
                   significant violators. The State also agreed that the
                   additional support information should have been in the files
                   during the OIG review.

                   Also, New Mexico disagreed that it had not established
                   goals to complete inspections of major stationary air
                   pollution sources. The State did concede, however, that
                   any substitutions for its planned inspections, reasons for the
                   substitutions, and Region 6 approval should be documented
                   in the file. In the future, the State will work more closely
                   with Region 6 to document such substitutions.

                   We clarified our language under the section 105 grant
                   obligations to report that it was not a section 105 grant
                   requirement for the state to commit to a certain number of
                   inspections. Rather, under the grant, the state is required to
                   provide EPA with an inspection plan which identifies the
                   facilities to be inspected. Although we used EPA’s

                                                         E1GAF7-06-0032-8100078
                             12
                            Region 6's Oversight of New Mexico
                                         Air Enforcement Data

unofficial 5-year timeframe for completing all major source
inspections as our criteria, we agree with New Mexico that
if a 5-year timeframe is to be required it should be part of
Agency written policy or guidance.

We also modified the number of significant violators based
on the additional documentation provided by New Mexico.
However, we do not believe that the additional
documentation provided sufficiently supports New
Mexico’s conclusions that the other three were not
significant violators. New Mexico’s justifications were
based on: (1) test data which New Mexico has not yet
received to confirm that one company is not a major source,
(2) incomplete information concerning a second company
which that company has refused to provide, and (3) permits
designating two components of a third company as synthetic
minors. However, New Mexico did not provide copies of
the permits for the third company, and file documentation
indicated that New Mexico considered this company a
major source. New Mexico agreed that the file
documentation would lead to the conclusion reached by
OIG.




                                     E1GAF7-06-0032-8100078
          13
                                                 Region 6's Oversight of New Mexico
                                                              Air Enforcement Data

                     CHAPTER 3
        NEW MEXICO AND REGION 6 NEED TO IMPROVE
         THE TIMELINESS OF ENFORCEMENT ACTIONS

                     New Mexico and Region 6 should have taken actions to
                     ensure that significant violators were returned to
                     compliance timely. New Mexico did not establish
                     timeframes for bringing facilities back into compliance. The
                     New Mexico Air Quality Bureau (Bureau) was without an
                     assigned attorney within the Office of General Counsel for
                     several months. As a result, facilities continued to violate
                     permit limits and operate without permits.



EPA GUIDANCE         EPA’s Timely and Appropriate Enforcement Response to
SPECIFIED            Significant Air Pollution Violators (guidance) required that
ENFORCEMENT          a notice of violation be issued to each significant violator
ACTION TIMEFRAMES    within 45 days of such determination. The guidance further
                     required that by day 150, a source be either resolved,
                     addressed, or subject to referral to the State’s Attorney
                     General or the U.S. Department of Justice for an
                     adjudicatory enforcement hearing or judicial action. The
                     guidance defines resolved as in compliance and addressed as
                     on a legally enforceable and expeditious administrative or
                     judicial order. Day 150 equals 180 days from the inspection
                     date since day zero (when the clock starts) is defined as 30
                     days after the discovering agency first receives information
                     concerning a federally enforceable violation. If the state’s
                     action is not timely, EPA has the authority to take its own
                     action.



NEW MEXICO DID NOT   New Mexico was not timely in addressing 14 significant
COMPLETE             violators in our sample of 28 major facilities. New
ENFORCEMENT          Mexico’s enforcement tracking system did not include fields
ACTIONS TIMELY       for identifying milestone dates, as required by the guidance,


                                                          E1GAF7-06-0032-8100078
                               14
                                                Region 6's Oversight of New Mexico
                                                             Air Enforcement Data

                    to monitor the progress of enforcement actions against
                    significant violators. Also, the State did not provide for any
                    other means of tracking progress.

                    The State averaged 155 days to issue the notices of
                    violation, although guidance required issuance of notices
                    within 45 days. Between June 1996 and June 1997, the
                    State completed enforcement action on 8 of the 14 cases but
                    averaged 319 days to complete these actions. The
                    remaining six cases, as of August 28, 1997, had been out of
                    compliance an average of 433 days.

                    For example, one of the facilities had been operating
                    without a permit for the past 12 years. New Mexico
                    discovered this violation on December 15, 1995. In August
                    1996, the Bureau elevated resolution to the division level
                    for review. However, when we inquired about the case, the
                    Bureau was not aware of the status of the case, beyond its
                    referral to the Office of General Counsel.

                    In another case, New Mexico issued a facility a notice of
                    violation in May 1996 for operating without a permit since
                    1994. New Mexico discontinued enforcement actions and
                    allowed the company to use the resources of the Small
                    Business Technical and Environmental Assistance Program
                    for help in submitting a permit application. This program
                    normally allows for immunity only if the business applies for
                    assistance before an enforcement action. At the time of our
                    review, the application had not yet been received by New
                    Mexico. During this period, New Mexico allowed the
                    company to continue operation without a permit or a
                    penalty.



NEW MEXICO LACKED   The Bureau did not have an assigned attorney within the
LEGAL COUNSEL       Office of General Counsel for several months. According to
ASSISTANCE FOR      Bureau personnel, approximately six attorneys left the office
SIGNIFICANT         at one time. Four attorneys remained to process all of New
VIOLATOR ACTIONS    Mexico’s environmental legal actions. The lack of legal

                                                         E1GAF7-06-0032-8100078
                              15
                                              Region 6's Oversight of New Mexico
                                                           Air Enforcement Data

                  representation caused delays in the completion of legal
                  instruments for enforcement actions, interpretations of State
                  legal statutes, and rulings on questionable areas of the law.

                  For example, one case involved a major facility that refused
                  to acknowledge State registered correspondence. This
                  facility had been in operation 3 years without a permit and
                  was avoiding State enforcement action. After New Mexico
                  sent a second settlement offer to the company in February
                  1997, the Bureau forwarded the case to the Office of
                  General Counsel for action. New Mexico issued a
                  compliance order to the company in April 1997. In August
                  1997, the case was pending assignment to a newly
                  employed attorney. Without legal counsel representation,
                  the Bureau was unable to escalate its enforcement actions.

                  New Mexico recently took action by adding personnel in the
                  Office of General Counsel and assigning an attorney to the
                  Bureau in September 1997.



RECOMMENDATIONS   We recommend that the Acting Regional Administrator
                  require Region 6 enforcement to perform more effective
                  oversight of significant violators to ensure that New Mexico
                  takes timely and appropriate actions that result in facilities
                  returning to compliance. The Region should:

                         3-1.    Work with New Mexico to develop standard
                                 operating procedures for timely enforcement
                                 actions,

                         3-2.    Work with New Mexico to assure the State
                                 maintains adequate staff to take timely and
                                 effectively enforcement actions against
                                 significant violators, and




                                                       E1GAF7-06-0032-8100078
                            16
                                         Region 6's Oversight of New Mexico
                                                      Air Enforcement Data

                     3-3.    Take enforcement action when New Mexico
                             does not take timely enforcement action and
                             consider overfiling when the State action
                             does not result in timely resolution.



AGENCY/STATE   Region 6 concurred with our findings and
RESPONSE       recommendations. New Mexico did not provide comments
               to this chapter.




                                                  E1GAF7-06-0032-8100078
                        17
                                                                   Region 6's Oversight of New Mexico
                                                                                Air Enforcement Data

                                                                             EXHIBIT 1


                                SCOPE AND METHODOLOGY


To obtain an understanding of applicable laws and policies, we reviewed the CAA, the Code of
Federal Regulations, EPA’s Timely and Appropriate Enforcement Response to Significant Air
Pollution Violators, the CAA Compliance/Enforcement Policy Manual, EPA’s Compliance
Monitoring Strategy, and the New Mexico State Code.

We also reviewed the fiscal 1996 section 105 cooperative agreement awarded to New Mexico
under the CAA, and EPA’s midyear and end-of-year reviews of the State’s performance. We
reviewed various AFS printouts to obtain information about the inspections performed.

To evaluate New Mexico’s enforcement of the CAA requirements, we reviewed the permit and
compliance files maintained by New Mexico. These files contained items such as inspection
reports, notices of violations, permits, permit applications, test results, emission monitoring
records, and correspondence.

We conducted interviews at New Mexico and Region 6's enforcement and permitting divisions.
We obtained listings from Region 6 of major sources and inspections performed for fiscal 1996.

To identify significant violators, we first obtained and reviewed a list of all New Mexico facilities
contained in AFS. This list, as of September 30, 1996, contained 199 major facilities. We
judgmentally selected a sample of 28 facilities, or 14 percent of the listed facilities. We selected
our sample based upon a review of AFS reports and reports from the State’s tracking system. We
reviewed the files for the selected facilities to determine if they were major sources, if and when
they were inspected last, if the inspection was adequate, and if the facilities were significant
violators. During our analyses, we reviewed documents prior to fiscal 1996 to obtain historical
information, such as the duration of problems and the results of previous inspections.

Our audit disclosed several areas needing improvements that are discussed in Chapters 2 and 3.
We provided position papers of our preliminary findings to Region 6 enforcement and New
Mexico in October 1997.

We reviewed management controls and procedures specifically related to our objectives, but did
not validate the data associated with the input and processing of information into AFS or any
other automated records system. Because of the inherent limitations in any system of internal
accounting control, errors or irregularities may occur and not be detected. Except for the issues

                                                                            E1GAF7-06-0032-8100078
                                                 18
                                                                  Region 6's Oversight of New Mexico
                                                                               Air Enforcement Data

discussed in this report, nothing came to our attention which would cause us to believe the State’s
procedures were not adequate for our purposes.




                                                                           E1GAF7-06-0032-8100078
                                                19
                                                                  Region 6's Oversight of New Mexico
                                                                               Air Enforcement Data

                                                                            EXHIBIT 2

                                 PRIOR AUDIT COVERAGE


On February 14, 1997, the Office of Inspector General (OIG) issued report number E1KAF6-03-
0082-710015 entitled Validation of Air Enforcement Data Reported to EPA by Pennsylvania. In
this report, OIG reported that Pennsylvania did not report all significant violators to EPA and did
not take aggressive enforcement action to bring all violating facilities into compliance.

On September 26, 1997, OIG issued report number E1GAF7-06-0014-7100295 entitled Region
6's Oversight of Arkansas Air Enforcement Data. In this report, OIG reported that Arkansas
maintained an extensive inspection program, Arkansas and Region 6 needed to better identify and
report significant violators, Region 6 enforcement did not adequately use information provided by
Arkansas to identify significant violators, and enforcement actions against significant violators
were not timely.

On September 26, 1996, OIG issued report number E1GAF5-06-0056-6100309 entitled Region
6's Enforcement and Compliance Assurance Program. In this report, OIG reported that neither
Texas nor Louisiana formally computed economic benefit when assessing fines; Region 6 and
Texas were not timely in completing enforcement actions against significant violators for any of
the cases reviewed; Region 6 and Louisiana did not adequately publicize their enforcement
actions; Region 6 air enforcement data in AFS was incomplete, inconsistent, and untimely; and
Region 6 did not work with states to develop and maintain active compliance assistance
programs.

On September 29, 1996, OIG issued report number E1KAE5-24- 0015-5100510 entitled EPA
Regional Management of Clean Air Act Section 105 Air Grant Program. In this report, OIG
reported that New Mexico’s database for determining which facilities to inspect was incomplete
and inaccurate and New Mexico did not follow CMS guidance in developing its inspection plan.
As a result, New Mexico performed many repetitive facility inspections each year, while other
facilities were never inspected.




                                                                           E1GAF7-06-0032-8100078
                                                20
                                                                  Region 6's Oversight of New Mexico
                                                                               Air Enforcement Data

                                                                               APPENDIX III

                                      DISTRIBUTION




Office of Inspector General

               Office of Inspector General (2410)
               Deputy Assistant Inspector General
                       for Internal Audits (2421)
               Office of Inspector General - Divisional Offices

Headquarters Office

               Assistant Administrator for Enforcement and Compliance Assurance (2201A)
               Assistant Administrator for Air and Radiation (6101)
               Agency Audit Followup Coordinator (3304)
               Agency Audit Followup Official (2710)
               Associate Administrator for Congressional & Legislative Affairs (1301)
               Associate Administrator for Communications, Education, and
                Public Affairs (1701)
               Associate Administrator for Regional Operations and State/Local Relations (1501)
               EPA Library (3404)

Regional Office

               Acting Assistant Regional Administrator for Management (6DRA-A)
               Director, Compliance Assurance and Enforcement Division (6EN)
               Acting Director, Multimedia Planning and Permitting Division (6PD)
               Director, Office of External Affairs (6XA)
               Audit Resolution Coordinator, Region 6 (6MD-R)
               Regional Library (6MD-II)

State Office

               Director, Environment Department, State of New Mexico



                                                                           E1GAF7-06-0032-8100078
                                                39
